United States v. Wortham, 990 F.3d 586 (2021)

Kelly, Circuit Judge, filed dissenting opinion.
990 F.3d 586
United States Court of Appeals, Eighth Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Jamerl M. WORTHAM, Defendant-Appellant.
United States of America, Plaintiff-Appellee,
v.
Anthony B. Williams, also known
as AB, Defendant-Appellant.

Procedural Posture(s): Appellate Review; Post-Trial
Hearing Motion.
West Headnotes (11)
[1]

Prevention and Control Act of 1970 § 401,
U.S.C.A. §§ 841(a)(1),

[2]

[2] sufficient evidence supported jury's determination that
defendant intended to facilitate drug distribution, such that
defendant aided and abetted drug distribution and possession
of short-barreled shotgun in furtherance of that crime.
Affirmed.

21

841(b)(1)(C).

Criminal Law

Objections in General

Criminal Law

Instructions

When defendants specifically request a
particular jury instruction, including one they
jointly propose with the government, they cannot
later assert on appeal absent an objection that the
instruction was given in error.

Holdings: The Court of Appeals, Morris S. Arnold, Senior
Circuit Judge, held that:
[1] sufficient evidence supported jury's determination that
defendant intended to facilitate carjacking, such that
defendant aided and abetted carjacking and possession of
short-barreled shotgun in furtherance of that crime, and

Instructions

Defendants waived on appeal their argument that
District Court violated their right to unanimous
jury verdict by not specifying in jury instruction
on charge of distributing drugs whether recipient
of the distribution was victim, other victim, or
both victims, where defendants and government
jointly proposed the instruction, District Court
did not modify the part of the instruction that
defendants complained about on appeal, and
problem of which defendants complained was
fully apparent at the time they jointly proposed
the instruction. Comprehensive Drug Abuse

No. 19-3334, No. 19-3431
|
Submitted: November 17, 2020
|
Filed: March 3, 2021
|
Rehearing Denied April 13, 2021
|
Rehearing En Banc Denied May 12, 2021
|
Rehearing and Rehearing En
Banc Denied July 16, 2021
Synopsis
Background: Defendants were convicted in the United
States District Court for the Western District of Missouri,
Brian C. Wimes, J., of carjacking, distributing drugs, and
possessing short-barreled shotgun in furtherance of the
offenses. Defendants appealed.

Criminal Law

[3]

Criminal Law

Review De Novo

Criminal Law
Construction in favor of
government, state, or prosecution
Criminal Law
from evidence

Inferences or deductions

Court of Appeals reviews a defendant's challenge
to the denial of his motion for judgment of
acquittal de novo, viewing the evidence in a
light most favorable to the government and
accepting all reasonable inferences drawn from
the evidence that support the jury's verdict.
App A

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Wortham, 990 F.3d 586 (2021)

[4]

Weapons
abetting

Nature of Decision
Criminal Law
Appealed from as Affecting Scope of Review

Sufficient
evidence
supported
jury's
determination that defendant intended to
facilitate carjacking, as opposed to some other
offense, such that defendant aided and abetted
carjacking and possession of short-barreled
shotgun in furtherance of carjacking offense;
evidence indicated that defendant parked stolen
car just inches behind victims' car, that within
matter of seconds after approaching victims,
defendant ordered them into backseat and
hopped inside victims' car, and that defendant

When reviewing a defendant's challenge to the
denial of his motion for judgment of acquittal,
Court of Appeals will not reverse unless no
reasonable jury could have found the defendant
guilty.

[5]

Criminal Law
Aiding, abetting, or other
participation in offense
In order to aid or abet a crime, a defendant must
intend to facilitate that offense's commission, and
an intent to advance some different or lesser
offense is not, or at least not usually, sufficient,
instead, the intent must go to the specific and
entire crime charged.

[6]

Weapons
abetting

18 U.S.C.A. § 2.

drove victims' car for much of the night.

[9]

[7]

[10]

Robbery

Persons liable

Weapons
abetting

Parties to crime; aiding and

Defendant took affirmative act that furthered
carjacking offense and offense of carrying shortbarreled shotgun in furtherance of carjacking, as
required for defendant to have aided and abetted
the commission of the crimes, where defendant
supplied the shotgun used to ensure victims'
compliance.
(A), (B)(i),

18 U.S.C.A. §§ 2,
2119.

924(c)(1)

Robbery

Participation in offense

2119.

Criminal Law
from evidence

Inferences or hypotheses

Criminal Law
court

Province of jury or trial

Controlled Substances
abettors
Weapons
abetting

Aiders and

Parties to crime; aiding and

Defendant took affirmative act that furthered
offense of drug distribution and offense of
possessing short-barreled shotgun in furtherance
of drug distribution, as required for defendant
to have aided and abetted the commission
of the crimes, where defendant supplied the
shotgun and drove the car when co-defendant
distributed drugs to victims while inside the
car.
18 U.S.C.A. §§ 2,
924(c)(1)(A), (B)
(i); Comprehensive Drug Abuse Prevention and
Control Act of 1970 § 401,

[8]

18

Court of Appeals, in reviewing the sufficiency of
evidence to support a conviction, cannot reject
a jury's conclusions merely because the jury
may have chosen the arguably weaker of two
contradictory, albeit reasonable, inferences.

A person should not be found guilty of aiding
and abetting an armed drug deal if the person did
not know the deal would be an armed one; if a
gun suddenly appears during the crime, without
the defendant's knowledge, he generally should
not be convicted of facilitating an armed offense.
924(c).

924(c)(1)(A), (B)(i),

U.S.C.A. §§ 2,

Parties to crime; aiding and

18 U.S.C.A. §§ 2,

Parties to crime; aiding and

841(a)(1),

21 U.S.C.A. §§

841(b)(1)(C).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Wortham, 990 F.3d 586 (2021)

[11]

Sale, distribution,
Controlled Substances
delivery, transfer or trafficking

PCP ( 21 U.S.C. § 841(a)(1), (b)(1)(C)), and possessing
a short-barreled shotgun in furtherance of those offenses

Weapons
abetting

(

Parties to crime; aiding and

Sufficient
evidence
supported
jury's
determination that defendant intended to
facilitate drug distribution, such that defendant
aided and abetted drug distribution and
possession of short-barreled shotgun in
furtherance of that crime; evidence indicated that
defendant had smoked drugs earlier in the day,
that he did so immediately before co-defendant
passed the blunt to victims, and that he did
not try to stop co-defendant.

18 U.S.C.A. §§

2,
924(c)(1)(A), (B)(i); Comprehensive Drug
Abuse Prevention and Control Act of 1970 § 401,
21 U.S.C.A. §§ 841(a)(1),

841(b)(1)(C).

*588 Appeals from United States District Court for the
Western District of Missouri–Kansas City
Attorneys and Law Firms
Stephen C. Moss, Asst. Fed. Public Defender, Kansas City,
MO, argued (Laine Cardarella, Fed. Public Defender, on the
brief), for defendant-appellant Jamerl M. Wortham.
David H. Johnson, Law Offices of David H. Johnson,
Kansas City, MO, argued, for defendant-appellant Anthony
B. Williams.
David Wagner, Asst. U.S. Atty., Kansas City, MO, argued
(Timothy A. Garrison, U.S. Atty., on the brief), for plaintiffappellee.
Before COLLOTON, ARNOLD, and KELLY, Circuit
Judges.
Opinion
ARNOLD, Circuit Judge.
Some years ago, Jamerl Wortham and Anthony Williams went
on an overnight crime spree in Kansas City, resulting in their
conviction for carjacking (

18 U.S.C. § 2119), distributing

18 U.S.C. § 924(c)(1)(A), (B)(i)). They both assert that

the district court 1 instructed the jury incorrectly on the
distribution charge, while Wortham maintains in addition that
the evidence was insufficient to establish that he aided and
abetted the principal offenses. We affirm.
On the night in question, Williams, Wortham, and an
unidentified third man (often called C.J.) began their criminal
activities by stealing a Jaguar automobile and driving it to a
hotel where they observed a woman, M.M., sitting on a curb.
She was drunk, crying, and waiting for an Uber driver to give
her a ride. An FBI agent testified that Wortham had told him
that Williams put his arm around M.M. and steered her into
the stolen Jaguar. M.M. could not recall how she ended up in
that car with the men.
The three men then drove themselves and M.M. to an area
containing standalone ATM machines. Around two o'clock in
the morning, two women in a Toyota pulled up to one of the
ATMs to deposit cash they had earned earlier in the night as
waitresses. After Wortham drove directly behind the women's
car and parked, Williams and C.J. got out and approached
them. Williams grabbed the woman driving the car, Y.C.,
and demanded cash. C.J. pointed a sawed-off shotgun at Y.C.
and at T.J., the woman sitting in the passenger seat. A few
seconds later, Williams and C.J. ordered the women into the
Toyota's backseat, whereupon the two men jumped inside
the car. Williams then drove the Toyota away, and Wortham,
accompanied by M.M., followed directly behind in the Jaguar.
The group proceeded to an apartment complex where they
left the Jaguar and all piled into the Toyota. With the shotgun
pointed toward the backseat where the women sat, they drove
to another ATM and tried to force Y.C. to withdraw cash, but
their efforts were foiled by Y.C.'s struggles with the machine
and the presence of another vehicle. T.J. testified that, as Y.C.
struggled with the ATM, the three men grew frustrated and
threatened to shoot the women. According to Y.C. and T.J.,
soon after Wortham drove the car *589 away from the ATM,
the defendants forced Y.C. and M.M. to smoke PCP.
T.J. and Y.C. both testified that the men wanted to buy more
drugs, and Y.C. said that they were looking for a specific
pipe as well, so they next traveled to a gas station to get
those items. After that stop, the men headed to the residence
of Matthew Walker, a friend of Wortham's. Walker testified

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Wortham, 990 F.3d 586 (2021)

that he and Wortham had been smoking PCP together earlier
in the day when Wortham told him that he planned to rob
someone that night, even showing Walker the sawed-off
shotgun he planned to use. The men departed Walker's home
and continued their exploits into the morning, buying drugs
and pipes and preventing the women from leaving.
As a result of these activities, Williams and Wortham were
charged with a host of crimes, and after a four-day trial,
a jury found them guilty of every submitted charge. The
district court sentenced Wortham to sixty years in prison
and Williams to four consecutive terms of life imprisonment,
given his extensive criminal history.
[1] Williams and Wortham challenge the district court's
jury instruction on the charge of distributing PCP. The
court instructed the jury that, to find the defendants guilty
of distributing PCP, the evidence must show, in relevant
part, that they intentionally transferred PCP “to another.”
Williams and Wortham maintain that by not specifying in
the instruction who the recipient of the distribution was—
whether Y.C., M.M., or both—the court violated their rights to
a unanimous jury verdict and to a grand jury indictment. They
also say that the court's instruction constructively amended
their indictment.
[2] We think, however, that Williams and Wortham
waived any arguments they may have had regarding the
jury instructions. First of all, they and the government
jointly proposed the instruction at issue. When defendants
specifically request a particular instruction, including one
they jointly propose with the government, they cannot later
assert on appeal absent an objection that the instruction
was given in error. See United States v. Tillman, 765 F.3d
831, 836 (8th Cir. 2014). Williams and Wortham maintain
nonetheless that the district court didn't actually give the
proposed instruction. But their argument is misleading. It is
true that the district court modified a different part of the
proposed instruction, but it did not modify the part of the
instruction that Williams and Wortham now complain about.
With respect to that part, the district court instructed the jury
exactly as they proposed.
Williams and Wortham also suggest that the instruction wasn't
problematic when they proposed it pretrial, and so they did
not knowingly waive any challenge to it. They contend that
the difficulty arose only when the evidence at trial showed
there was more than one drug distributee, and thus more than
one drug distribution. But the indictment expressly alleges

that the men forced Y.C. and M.M. to smoke PCP, and so the
problem of which Williams and Wortham now complain was
fully apparent at the time they jointly proposed the instruction.
So we decline to review their challenge to the instruction they
asked the district court to give.
[3] [4] Wortham maintains that the district court erred in
denying his motion for judgment of acquittal because the
evidence was insufficient to show that he aided and abetted
the carjacking or the distribution of PCP. We review this
challenge de novo, viewing the evidence in a light most
favorable to the government and accepting all reasonable
inferences drawn from the evidence that support the jury's
verdict. See United States v. Golding, 972 F.3d 1002, 1005
(8th Cir. 2020). We will not reverse *590 unless no
reasonable jury could have found the defendant guilty. Id. The
parties appear to assume that Wortham acted as a principal
in the offenses only because he aided and abetted Williams
18 U.S.C. § 2, so we
or C.J. in committing them, see
confine our discussion to whether a reasonable jury could
have found that Wortham aided or abetted the commission of
these crimes.
[5] [6] The Supreme Court has explained that a person aids
or abets a crime “if (and only if) he (1) takes an affirmative act
in furtherance of that offense, (2) with the intent of facilitating
the offense's commission.” See Rosemond v. United States,
572 U.S. 65, 71, 134 S.Ct. 1240, 188 L.Ed.2d 248 (2014). The
defendant must intend to facilitate that offense's commission,
and “[a]n intent to advance some different or lesser offense
is not, or at least not usually, sufficient: Instead, the intent
must go to the specific and entire crime charged.”

Id. at

76, 134 S.Ct. 1240. To illustrate, the Court in
Rosemond
suggested that, for a person to be found guilty of aiding
or abetting an armed crime of violence or an armed drugtrafficking crime, see
18 U.S.C. § 924(c), he must have
advance knowledge that a firearm would be used, and he must
have had this knowledge long enough beforehand to permit
him to choose freely whether to withdraw from the activity or
continue participating in it. Rosemond, 572 U.S. at 78, 134
S.Ct. 1240. As a result, a person should not be found guilty
of aiding and abetting an armed drug deal if the person did
not know the deal would be an armed one. If a gun suddenly
appears during the crime, without the defendant's knowledge,
he generally should not be convicted of facilitating an armed
offense.

Id. But the Court was careful to note that a jury

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Wortham, 990 F.3d 586 (2021)

could permissibly infer that the defendant indeed had advance
knowledge “from his failure to object or withdraw” from the
crime “after a gun was displayed or used.”
134 S.Ct. 1240.

group intended all along to take the Toyota, which would
allow Wortham simply to drive forward to leave the scene.

Id. at 78 n.9,

Finally, the jury could infer from Wortham's participation in
the night's events that he knew all along they would commit a
carjacking. Immediately after Williams and C.J. took control
[7] [8] We begin with Wortham's convictions for carjacking
of the Toyota, Wortham followed directly behind in the
and carrying a gun in furtherance of a carjacking. We have
Jaguar. Instead of withdrawing from an incident that had taken
no difficulty concluding that he took an affirmative act that
an unexpected turn, Wortham continued to participate. He had
furthered the offense: The evidence is overwhelming that he
ample opportunity to withdraw, as, for instance, simply by
supplied the shotgun used to ensure the victims' compliance.
turning right out of the lot containing the ATMs instead of
The real question is whether the evidence is sufficient to show
left. But he didn't. In fact, once the group shed the Jaguar and
that Wortham intended to facilitate a carjacking as opposed to
piled into the Toyota, Wortham himself took the wheel and,
some other offense. Wortham maintains that he and Williams
for much of the night, drove the very car he says the evidence
planned an ATM robbery, not a carjacking, and so he did
was insufficient to show he intended to take. We point out,
not intend to facilitate a carjacking. He contends that it was
moreover, that before the carjacking, Wortham was already
only after the robbery attempt was foiled (presumably, it
behind the wheel of the stolen Jaguar, supporting an inference
seems, because Y.C. deposited cash into the ATM instead of
that he had no qualms about taking another vehicle.
withdrawing it), that Williams and C.J. unexpectedly resorted
to a carjacking.
We note, too, that even though Wortham told police they
intended to commit a robbery only, the jury was not obligated
But there is a good deal of circumstantial evidence in the
to accept Wortham's account; the jury could have inferred that
record from which the jury could reasonably infer that
he was merely trying to minimize his involvement. The jury
Wortham intended to facilitate a carjacking. First of all, we
likewise did not have to believe Walker's testimony relating
have reviewed a video recording of the carjacking, and it's
Wortham's robbery plans. But even if the jury believed
hardly clear that Williams and C.J. resorted to a carjacking
Walker, it could still find that Wortham and Walker were
only after their robbery attempt had been foiled. Within a
merely discussing Wortham's plans without precise legal
matter of seconds after approaching the women, the men had
concepts in mind: In ordinary language a “robbery” might
ordered them into the backseat and hopped inside their car.
include a “carjacking,” or at least it does not eliminate
Even though they had just missed getting Y.C.'s cash, as she
the possibility of a carjacking. Or the jury could have
had seconds earlier deposited it into the ATM machine, T.J.
believed Walker's testimony but concluded nevertheless that
testified that she still had a bag of cash to deposit and that
Wortham's plans had changed in the interim between his
Williams and C.J. were going through it as they ordered the
discussion with Walker and the carjacking hours later. Given
women into the back of the Toyota. A jury could reasonably
this record, we think it reasonable for a jury to infer that
conclude that, by taking the car despite having secured a bag
Wortham had intended to facilitate the carjacking.
of cash, the men had intended something more than a robbery
from the outset.
[9] The dissent offers alternative explanations for these
events and concludes that “the government's evidence in
*591 It is also significant that the video appears to show that
support of Wortham's carjacking charge was equivocal and
Wortham parked the Jaguar just inches behind the Toyota. If
therefore insufficient for a reasonable jury to find that he
the men intended only a robbery, it would make scant sense
committed each of the elements of the offense.” In the first
to pull that close to the Toyota since, when they returned
place, we don't think that the government's evidence was
to the Jaguar with their loot, the driver would be prevented
equivocal. Even if it were, since “there is an interpretation
from making a swift, clean getaway. He would first have to
of the evidence that would allow a reasonable jury to find
back away from the Toyota to drive off or drive forward and
the defendant[s] guilty beyond a reasonable doubt,” we will
push it out of the way. Perhaps the jury could have believed
not disturb the jury's verdict on this count. See United States
that, in parking as he did, Wortham had merely committed
v. Hensley, 982 F.3d 1147, 1154 (8th Cir. 2020). What
robbery malpractice. But it is at least equally reasonable for
is more, “[w]e cannot reject a jury's conclusions merely
the jury to infer that Wortham parked so close because the
because the jury may have chosen the arguably weaker of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Wortham, 990 F.3d 586 (2021)

two contradictory, albeit reasonable, inferences.” See United
States v. Galloway, 917 F.3d 631, 635 (8th Cir. 2019).

Wortham aided and abetted the distribution of PCP,

21

U.S.C. § 841(a)(1),
(b)(1)(C), or carjacking,
18 U.S.C.
Though
Wortham
did
nothing
to
stop
these
crimes
§
2119.
[10]
[11] The evidence that Wortham aided and abetted
from occurring, neither is there evidence that he intended for
drug distribution is admittedly thinner, but it is nonetheless
his actions to facilitate their commission, as is required to
sufficient to support his conviction for distributing PCP and
possessing a short-barreled shotgun in furtherance of that
establish aiding and abetting liability. See
18 U.S.C. § 2.
crime. By *592 supplying the shotgun in question and
The jury instructions on the charge for distribution of PCP
driving the car when the distributions occurred, Wortham
present another issue, as I believe they permitted the jury to
facilitated the offense. The question, once again, is whether
reach a nonunanimous verdict.
he intended to do so. He maintains that Williams alone
distributed the PCP and that no evidence showed he had the
A person can be convicted under
18 U.S.C. § 2 for
requisite foreknowledge that Williams would do that.
aiding and abetting a crime “if (and only if) he (1) takes an
affirmative act in furtherance of that offense, (2) with the
T.J. affirmed, however, that Wortham appeared comfortable
with Williams distributing the drugs and that he did not try
to stop Williams. Y.C. agreed and added that Wortham, C.J.,
and Williams were “all working together” at this time. In fact,
she said that “they” pulled out a PCP-laden blunt because
M.M. was “very distressed,” and so “they” asked the women
to smoke it. The evidence also showed that Wortham himself
had been smoking PCP earlier in the day and was even
doing so immediately before Williams passed the blunt to the
women. Y.C. explained, “So it did start off with one of them
pulling out the blunt and passing it around the vehicle and next
passing it to the victims.” A jury could reasonably conclude
from this testimony that Wortham was fully on board with,
and intentionally facilitated, the drug's distribution.
Despite Wortham's protestation, the testimony is not
insufficiently reliable simply because Y.C. said the men
forced her to smoke a blunt while M.M. said she was forced
to smoke from a glass pipe. Even Wortham admits the women
were forced to smoke, albeit not by him. M.M.'s memory
of the events surrounding when the blunt was supposedly
passed around was admittedly hazy, and when she mentioned
smoking from a glass pipe, she appeared to be noting an event
that occurred later in the evening. It is certainly reasonable to
think that the men first forced the women to smoke a blunt and
then later forced M.M. to smoke from a pipe. Since this detail
is relatively minor, and the differing testimonies reconcilable
anyway, it is not the stumbling block Wortham says it is.
Affirmed.

KELLY, Circuit Judge, dissenting.
In my view, the government failed to present evidence at trial
sufficient to prove beyond a reasonable doubt that Jamerl

intent of facilitating the offense's commission.” Rosemond
v. United States, 572 U.S. 65, 71, 134 S.Ct. 1240, 188 L.Ed.2d
248 (2014). This demands that the defendant do more than
just “associate himself with the venture” in some way.
Id.
at 81, 134 S.Ct. 1240 n.10 (cleaned up). He must “participate
in it as in something that he wishes to bring about and seek
by his action to make it succeed.”
Id. (cleaned up). Put
another way, “the government must prove that the defendant
had a purposeful attitude, defined as affirmative participation
which at least encourages the perpetrator.” United States v.
Rolon-Ramos, 502 F.3d 750, 758 (8th Cir. 2007) (cleaned up).
The government's evidence in support of the count for aiding
and abetting the distribution of PCP was limited. As the court
points out, Wortham was driving the Toyota *593 while
Williams sat in the backseat with the women and, according
to their testimony, forced Y.C. and M.M. to smoke PCP.
Wortham also supplied the shotgun, which remained on the
floor in the front seat. And T.J. and Y.C. agreed with the
prosecutor's broad statement at trial that “all of the men in the
car appear[ed] comfortable with [Williams forcing the women
to smoke]” and were “all working together.” Missing from
the trial record, however, is evidence that Wortham intended
these actions, or inactions, to facilitate the distribution of PCP
to either Y.C. or M.M.
To the contrary, T.J. testified that it was Williams who “pulled
out the drugs.” She said that Williams “asked us if we smoked,
I said no, and then he proceeded to smoke it and made [Y.C.]
and [M.M.] smoke with him.” Even when the prosecutor used
the word “they” in his questioning (“How did they make them
smoke?” and “So you said they made [Y.C.] and the other
young lady smoke?”), T.J. answered using the singular “he,”

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Wortham, 990 F.3d 586 (2021)

referring to Williams. She testified that “[h]e told [M.M.] to
puff it. She tried to pretend like she did, and he was like that
wasn't good enough, and he didn't think that she puffed it so
he told her to actually puff it. And then he did the same thing
to [Y.C.].” At no point during this portion of her testimony did
T.J. mention Wortham or C.J., the third man involved in the
crimes, either by name or by other reference. Y.C., in turn, did
not name any defendant in particular during her description
of these events, testifying that “they asked all [of] us to smoke
from [a blunt].” Finally, M.M. said only that a pipe “was
forced” into her mouth, but she did not specify by whom.

and abetting each other and others, did knowingly and
intentionally distribute a *594 mixture or substance
containing phencyclidine (“PCP”),” on or about April 9,
2016. The court then instructed the jury that the underlying
offense of distributing PCP has two elements: (1) “the
defendant intentionally transferred a mixture or substance
containing [PCP] ... to another,” and (2) “knew that
[he] transferred a controlled substance.” (emphasis added).
Though we have held that “the identity of the distributee is

Nothing in this testimony illustrates an affirmative act by
Wortham intended to facilitate the distribution of PCP. Indeed,
it is not clear from the record that Wortham could even see
or understand from his position in the driver's seat what
was going on in the backseat. Without any other evidence
describing Wortham's conduct during this portion of the
night, the trial record was insufficient to establish beyond
a reasonable doubt that Wortham did anything more than
remain in the car while the distribution offense occurred
and acquiesce to it. This is insufficient to establish aiding
and abetting liability. See United States v. Thomas, 469 F.2d
145, 147 (8th Cir. 1972) (“In order for the defendants to
be guilty of aiding and abetting a crime it is necessary that
there be more than mere presence and acquiescence in the
crime itself.”). The burden is on the government to prove the

and
United States v. Martin, 482 F.2d 202 (1973), upon
which Cosby relies, arguably stand only for the proposition
that the government need not identify the distributee by name

United
elements of a crime beyond a reasonable doubt.
States v. Crenshaw, 359 F.3d 977, 987 (8th Cir. 2004) (“[I]n a
criminal case, substantial evidence means evidence sufficient
to prove the elements of the crime beyond a reasonable
doubt.”). Here, though the evidence at trial may have been
consistent with the government's theory, in my view it falls
short of proof beyond a reasonable doubt that Wortham
aided and abetted Williams or anyone else in distributing
PCP. See
In re Winship, 397 U.S. 358, 363, 90 S.Ct.
1068, 25 L.Ed.2d 368 (1970) (explaining that the beyond
a reasonable doubt standard “provides concrete substance
for the presumption of innocence—that bedrock axiomatic
and elementary principle whose enforcement lies at the
foundation of the administration of our criminal law” (cleaned
up)). I would vacate Wortham's conviction on this count
and the corresponding
18 U.S.C. § 924(c) conviction for
possessing a weapon in furtherance of this crime.
The jury instructions highlight another problem with the
distribution count. Count Thirteen of the superseding
indictment charged that Williams and Wortham, “aiding

not an essential element of the offense charged,”
United
States v. Cosby, 529 F.2d 143, 146 (8th Cir. 1976), that case

in the indictment. See
Martin, 482 F.2d at 204 (“Martin
finally contends that the indictment was fatally defective
in that it failed to reveal the name of the purchaser of the
narcotics. There is no merit to this contention.”);
Cosby,
529 F.2d at 146 (“[T]he identity of the distributee is not an
essential element of the offense charged, and the government
is not required to identify the distributee in the indictment.”).
But even if the government does not have to prove the
identity of the distributee, this does not mean that it may
establish the elements of the crime by presenting evidence of
multiple distributions to different individuals, thus permitting
different jurors to reach different conclusions about which of
the distributions actually occurred. See
United States v.
Karam, 37 F.3d 1280, 1286 (8th Cir. 1994) (explaining that
“[t]he principal vice of a duplicitous indictment is that the jury
may convict a defendant without unanimous agreement on the
defendant's guilt with respect to a particular offense”).
Here, though the superseding indictment's distribution count
alleged only that Wortham and Williams distributed PCP to
an unidentified, singular distributee, at trial the government
presented evidence of two separate distributions of PCP
to two different individuals. The government first elicited
testimony that one or both of the defendants forced M.M.
to smoke PCP, and then that one or both of the defendants
forced Y.C. to smoke PCP. This amounts to evidence of two
intentional transfers of PCP “to another.” The jury was not
instructed that it had to identify which of the distributions
the government had proven beyond a reasonable doubt. The
evidence of two separate distributions—distinct offenses—
thus rendered the distribution of PCP count duplicitous,
meaning that it impermissibly joined “two or more distinct
and separate offenses” in one count. United States v. Moore,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Wortham, 990 F.3d 586 (2021)

184 F.3d 790, 793 (8th Cir. 1999); see
United States v.
Pietrantonio, 637 F.3d 865, 871 (8th Cir. 2011) (explaining
that a count that is not duplicitous on its face may be “rendered
duplicitous by the evidence presented at trial”). 2
Based on the government's evidence, some jurors may have
concluded that Williams forced M.M. to smoke PCP, while
others may have believed he forced only Y.C. to smoke PCP.
This problem becomes yet more complicated if one considers
the aiding and abetting theory. It is possible the jury found
that one defendant distributed *595 PCP to M.M., but that
the other defendant aided and abetted distributing PCP only
to Y.C., or the other way around. See United States v. Roan
Eagle, 867 F.2d 436, 445 (8th Cir. 1989) (explaining that there
can be no aiding and abetting liability without an underlying
criminal offense). Though the evidence was insufficient to
support a guilty verdict on the distribution count as to
Wortham, I also believe it was error for the district court not
to provide a specific instruction informing the jury that it
must unanimously find the defendant guilty with respect to
the same act of distribution. See
909 F.2d 1114, 1139 (8th Cir. 1990);

United States v. Hiland,
Pietrantonio, 637 F.3d

at 869; Karam, 37 F.3d at 1286. Even on plain error review,
I believe the absence of a specific unanimity instruction at trial
warrants vacating both Wortham's and Williams's convictions
on this count, as well as the accompanying

§ 924(c) counts.

Although a closer call, I also agree with Wortham that the
government did not present sufficient evidence to permit
a reasonable jury to find him guilty beyond a reasonable
doubt of carjacking. The jury was instructed that to convict
Wortham of aiding and abetting on this count it had to find
that Wortham: (1) “[knew] carjacking was being committed or
going to be committed,” (2) “had enough advance knowledge
of the extent and character of the carjacking that he was able
to make the relevant choice to walk away,” (3) “knowingly
acted in some way for the purpose of causing, encouraging or
aiding the commission of the carjacking,” and (4) “intended
someone to carjack the victim.” I agree that the government's

evidence was not inconsistent with an inference that Wortham
intended the carjacking. But such evidence is not proof
beyond a reasonable doubt that he knew the carjacking was
going to happen or that he meant for his actions to help the
other men complete the crime.
For example, I am not persuaded that a reasonable jury
could conclude from the fact that Wortham parked the
Jaguar directly behind the Toyota that he understood the
plan all along was to take the Toyota. It is just as plausible
that Wortham pulled up immediately behind the Toyota to
ensure the other two men would be able to reach their
intended victims before they fled. And putting the Jaguar in
reverse would not necessarily preclude a quick getaway from
the otherwise empty bank drive-through. Further, though
Wortham confessed to planning a robbery, in that same
confession he explained that the other two men had not
mentioned anything about kidnaping anyone and that the
plan had been for them to rob their victims and get back
in the Jaguar. Wortham's conduct after the carjacking is
relevant, but on this record it is insufficient to support the
verdict. He was not charged with accessory after the fact
of a carjacking but with aiding and abetting the crime of
carjacking itself. “The presumption of innocence operates to
remind the jury that the government has the burden to prove
each element of the offense beyond a reasonable doubt.”
United States v. Harper, 466 F.3d 634, 645 (8th Cir. 2006)
(emphasis added). In this case, the government's evidence in
support of Wortham's carjacking charge was equivocal and
therefore insufficient for a reasonable jury to find that he
committed each of the elements of the offense. See United
States v. Higginbotham, 451 F.2d 1283, 1285 (8th Cir. 1971).
Accordingly, I would also vacate Wortham's conviction for
carjacking and possessing a gun in furtherance of that crime.
I respectfully dissent.
All Citations
990 F.3d 586

Footnotes
1

The Honorable Brian C. Wimes, United States District Judge for the Western District of Missouri.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Wortham, 990 F.3d 586 (2021)

2

It is true that in support of Count One, the conspiracy to kidnap charge, the superseding indictment alleged
that Wortham and Williams committed the overt act of “forc[ing] T.J., Y.C., and M.M. to smoke PCP.” But
the government alleged no such conduct in support of the distribution count, which charged only that the
defendants “did knowingly and intentionally distribute [PCP].” Under the circumstances, I would not find waiver
and would instead review the jury instructions for plain error, as the defendants did not object to the challenged
instruction at the close of evidence. See

End of Document

United States v. Poitra, 648 F.3d 884, 887 (8th Cir. 2011).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

012345ÿ738347ÿ9 0 3ÿ ÿ8 487ÿ
ÿ34ÿ423ÿ92 9023ÿ
ÿÿ
ÿ
ÿ!"ÿ#ÿ$%&'!ÿ
ÿ
ÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿ$(())ÿ
ÿ
*+ÿ
ÿ
,!%&)ÿ-+ÿ.&/!%ÿ
ÿ
ÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿ$(())!ÿ

ÿ
ÿ
000000000000000000000000000000000000000000000000000000000000000000000000000000ÿÿ
$((!)ÿ#&%ÿ++ÿ1"&'ÿ23&ÿ#&ÿ/ÿ."&ÿ1"&'ÿ#ÿ-""3&ÿÿ4!"!"ÿ25ÿ
67'&8892.:ÿ
000000000000000000000000000000000000000000000000000000000000000000000000000000ÿÿ
54 ÿ
ÿ ÿ
ÿ $(())!;"ÿ(ÿ#&ÿ(!)ÿ&/!&<ÿ"ÿ+ÿ,3<ÿ4))5ÿ=3)ÿ<&!ÿ/ÿ(ÿ
#&ÿ(!)ÿ&/!&<+ÿ>/ÿ(ÿ#&ÿÿ?!'ÿ&/!&<ÿ=))ÿ?ÿ&#&&ÿÿ/ÿ'3&ÿÿ?!'+ÿ
ÿ
ÿ ÿ ÿ ÿ ÿ ÿ ÿ $(&)ÿ@ÿA8Aÿ
ÿ
ÿ
ÿ
ÿ
B&&ÿC&ÿ!ÿ/ÿ1&'ÿ#ÿ/ÿ23&ÿÿ
2)&D@ÿ++ÿ23&ÿ#ÿ$((!)"@ÿC<//ÿ2&'3+ÿÿ
000000000000000000000000000000000000ÿÿ
ÿ ÿÿÿÿÿÿÿE"Eÿ-'/!)ÿC+ÿF!"ÿÿ

App B

GHHIJJKLIÿNKOIPÿQRSTTTUÿÿÿÿÿVKWIPÿQÿÿÿÿÿÿXKLIÿYZJI[Pÿ\U]QT]^\^Qÿ_`LabÿcXPÿd\^d^Q^ÿ

012345ÿ738347ÿ9 0 3ÿ ÿ8 487ÿ
ÿ34ÿ423ÿ92 9023ÿ
ÿÿ
ÿ
ÿ!"ÿ#ÿ$%&'!ÿ
ÿ
ÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿ$(())ÿ
ÿ
*+ÿ
ÿ
,!%&)ÿ-+ÿ.&/!%ÿ
ÿ
ÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿ$(())!ÿ

ÿ
ÿ
000000000000000000000000000000000000000000000000000000000000000000000000000000ÿÿ
$((!)ÿ#&%ÿ++ÿ1"&'ÿ23&ÿ#&ÿ/ÿ."&ÿ1"&'ÿ#ÿ-""3&ÿÿ4!"!"ÿ25ÿ
67'&8892.:ÿ
000000000000000000000000000000000000000000000000000000000000000000000000000000ÿÿ
54 ÿ
ÿ
ÿ ;/ÿ(ÿ#&ÿ&/!&<ÿÿ=!'ÿ"ÿ+ÿÿ
ÿ ÿ ÿ ÿ ÿ ÿ ÿ -!5ÿ>?ÿ>8>ÿ
ÿ
ÿ
ÿ
ÿ
ÿ
ÿ
@&&ÿA&ÿ!ÿ/ÿ1&'ÿ#ÿ/ÿ23&ÿÿ
2)&B?ÿ++ÿ23&ÿ#ÿ$((!)"?ÿA<//ÿ2&'3+ÿÿ
000000000000000000000000000000000000ÿÿ
ÿ ÿÿÿÿÿÿÿC"Cÿ-'/!)ÿA+ÿD!"ÿÿ

App C

EFFGHHIJGÿLIMGNÿOPQRRRSÿÿÿÿÿTIUGNÿOÿÿÿÿÿÿVIJGÿWXHGYNÿZ[\O]\]Z]Oÿ^_J̀aÿbVNÿ[ZRScOdÿ

App D

